                                                       IG-01-009




AUDIT
                            FASTER, BETTER, CHEAPER: POLICY,
REPORT                      STRATEGIC PLANNING, AND HUMAN
                                 RESOURCE ALIGNMENT

                                      March 13, 2001




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

FBC              Faster, Better, Cheaper
GAO              General Accounting Office
GPRA             Government Performance and Results Act
ISO              International Organization for Standardization
JPL              Jet Propulsion Laboratory
MCO              Mars Climate Orbiter
MPL              Mars Polar Lander
NIAT             NASA Integrated Action Team
NPD              NASA Policy Directive
NPG              NASA Procedures and Guidelines
OIG              Office of Inspector General
OMB              Office of Management and Budget
W                                                                      March 13, 2001



TO:         A/Administrator

FROM:       W/Inspector General

SUBJECT: INFORMATION: Faster, Better, Cheaper: Policy, Strategic Planning, and
         Human Resource Alignment
         Report Number IG-01-009


The NASA Office of Inspector General (OIG) conducted an audit of the Implementation
of Faster, Better, Cheaper (FBC) policies for acquisition management at NASA. By
using FBC to mange programs/projects, NASA has attempted to change not only the way
project managers think, but also the way they conduct business. Therefore, we
considered FBC a management policy that should be defined, documented in policy
documents, and incorporated into the strategic planning process. Although NASA has
been using the FBC approach to manage projects since 1992, NASA has neither defined
FBC nor implemented policies and guidance for FBC. Without a common understanding
of FBC, NASA cannot effectively communicate its principles to program/project
managers or contractor employees. In addition, the Agency has not incorporated
sufficient FBC goals, objectives, and metrics into NASA's strategic management process.
Therefore, missions completed using FBC are outside the strategic management and
planning process, and progress toward achieving FBC cannot be measured or reported.
Finally, NASA has not adequately aligned its human resources with its strategic goals.
As a result, the Agency cannot determine the appropriate number of staff and
competencies needed to effectively carry out strategic goals and objectives for its
programs.

Background

The intent of FBC was to decrease the amount of time and cost for each mission and to
increase the number of missions and overall scientific results obtained on each mission.
In 1999, after the failure of four missions that used the FBC approach for project
management, you commissioned several independent reviews to examine FBC and
mission failures, search for root causes, and recommend changes. In March 2000, you
tasked the NASA Integrated Action Team (NIAT), led by NASA's Chief Engineer, to
define a plan to mitigate the root causes for the failures that were identified in the reports
                                                                                            2


issued by the independent review teams. The NIAT effort and our audit work were
performed concurrently and resulted in two separate reports.

Recommendations

We recommended that NASA define FBC and develop policies and guidance to describe
its implementation. Documenting FBC definitions, policies, and guidance will facilitate
communication to program/project managers and contractors and strengthen
accountability for program results. We also recommended that NASA fully incorporate
FBC into the strategic management process. By including FBC as part of the strategic
management and planning process, progress toward achieving FBC can be measured or
reported. In addition, we recommended that NASA align its staffing with strategic goals.
This will allow NASA to determine the appropriate number of staff and competencies
needed to effectively carry out strategic goals and objectives for its programs.

Management's Response and OIG Evaluation

Management partially concurred with developing policies and guidance to define FBC
and describe its implementation. Management stated that FBC should not be a separate
subset of management policies. However, management plans to include the definition of
FBC and appropriate changes resulting from the NIAT report in NASA policy
documents, as appropriate.

NASA also only partially concurred with the recommendations to align staffing with
strategic goals because management does not view FBC as the cause for the staffing
issues identified. However, NASA plans to develop a workforce plan for each Center
that will link staffing, funding resources, mission and activities and core competencies.
In addition, the fiscal year 2002 Performance Plan will include a discussion of Agency
human resources.

While the above actions are considered responsive to our recommendations, NASA
nonconcurred with the recommendation to fully incorporate FBC into the strategic
management process stating that the current coverage of FBC in the strategic
management process is adequate. For the reasons discussed in the report, we maintain
our position that the current coverage is not adequate. Accordingly, we asked NASA to
reconsider its position and provide additional comments. Given your strong commitment
to FBC, I hope you will consider fully implementing our remaining recommendations.


Details on the status of the recommendations are in the findings sections of the report.


[original signed by]
Roberta L. Gross

Enclosure
                                                                                      3


Final Report on Audit of Faster, Better, Cheaper: Policy, Strategic Planning, and Human
Resource Alignment
                    FINAL REPORT
AUDIT OF FASTER, BETTER, CHEAPER: POLICY, STRATEGIC
     PLANNING AND HUMAN RESOURCE ALIGNMENT
W                                                                    March 13, 2001


TO:            AE/Chief Engineer
               AI/Associate Deputy Administrator
               F/Associate Administrator for Human Resources and Education
               Z/Associate Administrator for Policy Plans

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of Faster, Better, Cheaper: Policy Strategic
               Planning and Human Resource Alignment
               Assignment Number A0002400
               Report Number IG-01-009


The subject final report is provided for your use and comment. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response is
incorporated into the body of the report.

We request that management provide additional information for recommendation 2 as
described in the report by May 14, 2001. The corrective action planned for
recommendations 1, 3, 4, and 5 were responsive. Please notify us when action has been
completed on the recommendations, including the extent of testing performed to ensure
corrective actions are effective. All recommendations will remain open for reporting
purposes until agreed-to corrective actions are completed.

If you have questions concerning the report, please contact Mr. Daniel Samoviski,
Program Director, Earth and Space Science Audits, at (301) 286-6890, or Ms. Esther
Judd, Program Manager/Auditor-in-Charge, at (301) 286-3359. We appreciate the
courtesies extended to the audit staff. The final report distribution is in Appendix J.


[original signed by]
Russell A. Rau

Enclosure
                                                                          2


cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
GSFC/100/Director, Goddard Space Flight Center
JPL/180-800/Director, NASA Management Office, Jet Propulsion Laboratory
JSC/AA/Acting Director, Lyndon B. Johnson Space Center
MSFC/DA01/Director, Marshall Space Flight Center
Contents
Executive Summary, i
Introduction, 1
Findings and Recommendations , 3
     Finding A. Faster, Better, Cheaper Policies and Guidance, 3

     Finding B. NASA Strategic Management for Faster, Better,
                Cheaper, 10

     Finding C. Fact-Based Human Resource Management, 14
Appendix A - Objectives, Scope, and Methodology, 22
Appendix B - Summary of Mars Program Failures, 25

Appendix C - Clarification on Cost Considerations in Project
             Management, 26

Appendix D - Rules of Engagement for FBC Projects, 27

Appendix E - FBC Mars Missions Showed Disparity in Management,
             Resources, Process, and Execution, 28

Appendix F - Analysis of FBC Coverage in NASA's Strategic
             Management Documents, 29
Appendix G - Analysis of Human Resource Coverage in NASA's
            Strategic Planning Documents, 33
Appendix H - Analysis of NASA's Human Resource Issues, 36

Appendix I - Management's Response, 38

Appendix J - Report Distribution, 45
                           NASA Office of Inspector General
IG-01-009
 A0002400                                                                           March 13, 2001

     Faster, Better, Cheaper: Policy, Strategic Planning, and Human
                           Resource Alignment

                                      Executive Summary

Background. Since 1992, NASA has sought ways to manage programs and projects
using an FBC philosophy1 without compromising safety. This has translated into the
launch of large numbers of relatively small, low-cost spacecraft. Conceptually, the FBC
approach was intended to minimize the impact of a failed spacecraft on missions while
maximizing the amount of science that could be accomplished with limited resources.

Objectives. The overall objective was to evaluate the implementation of the FBC
policies for acquisition management at NASA. Specifically, we assessed the policies and
procedures issued by NASA, including the Enterprises 2 and Lead Centers, 3 related to
FBC acquisition management and implementation of FBC acquisition policies and
procedures by NASA program and project management. Details on the objectives, scope,
and methodology are in Appendix A.

Results of Audit. The FBC initiative has changed the way NASA does business, but it
has not been adequately defined in NASA's policies and guidance or strategic planning
process. In addition, the Agency has not established a clear linkage between mission
staffing and the accomplishment of strategic goals.

•   NASA Headquarters has not developed adequate policies or guidance for
    implementing FBC. The lack of policies and guidance weakens accountability for
    results and could affect mission success (Finding A).


1
  NASA refers to FBC as a management philosophy. However, by using FBC to manage programs/projects,
NASA has attempted to change not only the way project managers think, but also the way they conduct
business. Therefore, we considered FBC a management policy that should be defined, documented in
policy documents, and incorporated into the strategic planning process. Hereafter, the report refers to FBC
as a policy.
2
  NASA established four Strategic Enterprises (Human Exploration and Development of Space, Space
Science, Earth Science, and Aerospace Technology) to function as primary business areas for implementing
NASA's mission and serving its customers. Each Enterprise has a unique set of strategic goals, objectives,
and implementation strategies that address the requirements of the Agency's primary customers. On
September 29, 2000, NASA announced the restructuring of the Office of Life and Microgravity Sciences
and Applications. This restructuring moved some functions from the Human Exploration and Development
of Space Enterprise to a new Enterprise, Biological and Physical Research, which focuses on scientific
research.
3
  In general, each NASA program is assigned to a Lead Center that is responsible for implementation,
accountability for meeting schedule and budget guidelines, and safety and reliability standards.
•   NASA has not sufficiently incorporated FBC into its strategic planning and
    management process. As a result NASA's FBC goals do not receive sufficient
    visibility and NASA cannot measure or report its progress in achieving FBC
    objectives (Finding B).

•   NASA has not adequately incorporated strategic human resources management into
    the Agency's strategic or performance plans. Hence, NASA has not determined the
    appropriate number of staff or competencies needed to effectively carry out its
    strategic goals and objectives for its programs, most notably the FBC Mars Program,
    and may lose core competencies 4 (Finding C).

Recommendations. NASA should develop policies and guidance to define FBC and
address how it is to be implemented at NASA, fully incorporate FBC into key strategic
management documents and report the results in the annual performance report, and align
human resources with strategic goals.

Management's Response and Evaluation of Response

Management's Response. Management partially concurred with the recommendation to
develop policies and guidance to define FBC and describe its implementation. Also,
management partially concurred with the recommendations to align human resources
with strategic goals. Management nonconcurred with the recommendation to fully
incorporate FBC into key strategic management documents and report the results in the
annual performance plan. The complete text of management's response is in Appendix I.

Evaluation of Response. Although management partially concurred as noted above, we
consider its planned actions responsive to the intent of the recommendations regarding
(1) developing policies and guidance to define FBC and describe its implementation and
(2) describing in the Implementation Strategy sections of the NASA Annual Performance
Plan the ways in which the Agency is implementing human resources management.

Management's planned actions are also responsive to the recommendation to develop a
workforce strategy that will assess human resources management issues and to develop
meaningful data and data systems on which to base decisions tied to all aspects of human
resource management. Details on the Agency's actions are in the findings sections of the
report.

Management did not provide corrective actions in response to the recommendation to
align human resources with strategic goals. However, the planned actions described in
response to the recommendation to develop a workforce strategy that will assess human
resources management issues will meet the intent of this recommendation.



4
 The Office of Personnel Management defines core or essential competencies in, "Looking to the Future:
Human Resources Competencies," Part 2, dated September 1999, as the foundation of knowledge and skills
that result in effective and/or superior performance.
                                                      ii
       ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                                         DRAFT AUDIT REPORT
Regarding management's nonconcurrence with the recommendations to fully incorporate
FBC into key strategic management documents and report the results in the annual
performance plan, we request that management reconsider its position, based on our
evaluation in the finding section of the report and provide additional comments.

A detailed evaluation of management's comments is provided with each recommendation
in the body of the report.




                                   iii
    ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                 DRAFT AUDIT REPORT
Introduction
The FBC approach to NASA project management is an outgrowth of both internal and
external pressures on the Agency. The internal pressures stemmed from the multibillion
dollar NASA missions of the past that took decades to move from concept to operation
and return of data. The external pressures included the Government-wide initiative to do
more with less and the desire to identify more effective public/private sector interaction.

In 1992, the NASA Administrator challenged all of NASA, including industry and
academia, to use an FBC approach to project management. In a 1992 speech to NASA
employees, the Administrator stated, "… tell us how we can implement our missions in a
more cost-effective manner. How can we do everything better, faster, cheaper, without
compromising safety?" By initiating FBC project management, the Agency intended to
maximize the overall amount of science obtained on a mission while minimizing the
impact of a failed spacecraft.

During the period 1996 through 2000, there were 6 mission failures out of 25 missions
that were clearly associated with exploring the boundaries stimulated by FBC. NASA
lost four of those missions, the Wide Field Infrared Explorer, 5 Mars Climate Orbiter
(MCO),6 Mars Polar Lander (MPL), 7 and the twin Deep Space 2 micro-probes 8 in 1999.
As a result of these failures, 9 NASA commissioned several independent reviews to
examine FBC and mission failures, search for root causes, and recommend changes.

The FBC Task review, initiated by NASA in July 1999, studied the Agency's
implementation of FBC through a series of interviews and workshops. 10 The objectives
of the review included defining FBC, developing FBC "Rules of Engagement," and
providing recommendations for improving FBC implementation at NASA. Although
NASA has not developed a formal definition of FBC, the FBC Task final report 11 defined
FBC as "attempting to improve performance by being more efficient and innovative, and




5
  The Wide-Field Infrared Explorer's mission objective was to conduct a deep infrared, extra-galactic
science survey. The Wide-Field Infrared Explorer was launched on March 4, 1999, and was observed to be
tumbling at a rate higher than expected during its initial pass over a ground station in Alaska. After
significant recovery efforts, the mission was declared a loss on March 8, 1999.
6
  The MCO was designed to operate in a polar orbit for up to 5 years to study the weather and serve as a
telecommunications relay link for the Mars Polar Lander and other missions.
7
  The MPL was to land on Mars and study volatiles (volatile material consists of carbon dioxide and water,
both vapor and ice) and climate history during its 90-day mission. The MPL was designed to send its data
to MCO for relay to Earth, a plan eliminated by the loss of the MCO although the MPL had the capability
to communicate directly to Earth.
8
  Deep Space 2 was a technology mission to demonstrate microprobe technology for future applications in
exploring various solid bodies in our solar system. The microprobes and the MPL were integrated on a
common cruise stage for the trip from Earth to Mars.
9
  Appendix B provides further information on these mission failures.
10
   Mr. Tony Spear, former JPL project manager who is considered an expert on FBC, headed the review.
11
   On March 13, 2000, the FBC Task review team issued a final report that summarized the results of its
review.
it applies to everything and everyone," and added that "there is an intangible element;
there is team spirit associated with doing FBC and people are the most important
ingredient."

In October 1999, NASA chartered an MCO Mishap Investigation Board 12 to assess and
report on the actual or probable cause of the MCO mission failure and expanded the
review after the subsequent loss of the MPL. Additionally, NASA commissioned a Mars
Program Independent Assessment Team13 to perform an in-depth review of and report on
the entire Mars Program. The Mars Program Independent Assessment Team's report,
dated March 14, 2000, defined FBC as: (1) creating smaller spacecraft and more frequent
missions, (2) reducing cycle time by eliminating inefficient and redundant processes, (3)
utilizing new technology, (4) accepting prudent risk where warranted by return, and (5)
utilizing proven engineering and management practices to maximize success. Common
findings of the three reports included: (1) inadequate risk management tools; (2)
inadequate training and mentoring of new employees; (3) problems observed but not
communicated; and (4) in some cases, unsound engineering and management principles
with respect to timely, independent peer review of scientific and technical approaches.

In March 2000, NASA tasked the NASA Integrated Action Team, led by NASA's Chief
Engineer, to define a plan to mitigate the root causes for the failures that were identified
in four reports on NASA management 14 and to enhance the probability of future success.
The NASA Integrated Action Team is defining action plans that respond to the report
recommendations that pertain to the Agency's approach to managing programs and
projects. When it was created, the NASA Integrated Action Team planned to report its
results by August 2000. The report was not issued until December 18, 2000, after the
draft of this report was issued. 15




12
   The NASA Office of Space Science established the MCO Mishap Investigation Board on October 15,
1999. On November 10, 1999, the Board issued a "Phase I" report that focused on identifying the root
cause and contributing factors of the MCO failure. On January 3, 2000, NASA broadened the Board's
investigation to include developing lessons learned and recommendations to benefit future NASA missions.
The Board reported its findings in, "Report on Project Management in NASA," dated March 13, 2000.
13
   The Agency established this team to review and analyze success and failures of the Mars and Deep
Space 2 Missions, as well as related reports commissioned by NASA.
14
   The four reports on NASA management are the "Space Shuttle Independent Assessment Team Report to
the Associate Administrator for the Office of Space Flight," dated March 7, 2000; the "NASA Faster,
Better, Cheaper Task Final Report," dated March 13, 2000; the "Report on Project Management in NASA
by the Mars Climate Orbiter Mishap Investigation Board," dated March 13, 2000; and the "Mars Program
Independent Assessment Team Summary Report," dated March 14, 2000.
15
   Although we had discussions with the Chief Engineer, in general terms, about the NIAT report contents,
we were not permitted to review the report prior to the issuance of our draft report. Therefore, the draft of
this report did not reflect the corrective actions that have been planned as a result of the NIAT report.

                                                     2
Findings and Recommendations

Finding A. Faster, Better, Cheaper Policies and Guidance
At the time we issued our draft report, NASA Headquarters had not defined FBC,
developed adequate policies and guidance for implementing FBC,16 or provided adequate
guidance on what the Agency considers an acceptable level of risk. NASA considered
FBC to be a philosophy that did not need to be formalized into written Agency policies or
guidance. Without written policies or guidance, NASA cannot effectively communicate
FBC to program/project managers and contractors which could negatively affect mission
success, weaken accountability for results, and lead to increased cost and delays.

Development of Policy and Guidance

Federal policy and guidance requires agencies to develop management structure,
including policies, methods, and procedures, when reengineering agency programs and
operations. In addition, NASA internal guidance requires that policy statements,
guidance, and implementing instructions be documented. The Federal and Agency
requirements follow:

Office of Management and Budget. Office of Management and Budget (OMB)
Circular A-123, "Management Accountability and Control,"17 dated June 21, 1995, states
that as Federal employees develop and implement strategies for reengineering agency
programs and operations, agencies should design management structures that help ensure
accountability for results and that include appropriate, cost-effective controls. The
Circular states that management controls are the organization, policies, and procedures
used to reasonably ensure that programs achieve their intended results and that reliable
and timely information is obtained, reported, and used for decision making.

General Accounting Office. The General Accounting Office (GAO), "Standards for
Internal Control in the Federal Government,"18 dated November 1999, states that internal
control is a major part of managing an organization and comprises the plans, methods,
and procedures used to meet missions, goals, and objectives and in doing so, supports
performance-based management.

International Organization for Standardization. The U.S. version of the International
Organization for Standardization (ISO)19 standards requires organizations to document
their procedures and to document compliance with those procedures to attain ISO

16
   The NIAT issued a report on December 18, 2000, that describes actions that, if taken, would provide
adequate policies and guidance for FBC. However, the NIAT report was not available for our review until
after we issued the draft of this report.
17
   OMB Circular A-123, issued under the authority of the Federal Managers' Financial Integrity Act of
1982, provides guidance to Federal managers on improving the accountability and effectiveness of Federal
programs and operations by establishing, assessing, correcting, and reporting on management controls.
18
   GAO "Standards for Internal Control in the Federal Government," AIMD-00-21.3.1, defines internal
control and explains internal control objectives and standards.
19
   The ISO is a worldwide federation of national standard-setting organizations.

                                                    3
certification. NASA policy20 is for all NASA Centers and Headquarters to obtain ISO
9001 certification. NASA uses the U.S. version of ISO 9001, which is known as
Q9001-1994.21 To receive ISO certification under Q9001-1994, an organization must
establish "process control" to ensure that processes are established and carried out under
controlled conditions. Controlled conditions include documented procedures and
compliance with those documented procedures.

NASA Policy. NASA requires that its policy statements, guidance, or implementing
instructions be documented as NASA Policy Directives (NPD's) 22 and/or NASA
Procedures and Guidelines (NPG's) 23 as the means to effectively and efficiently convey
instructions to employees, customers, and suppliers.

NPD 1400.1F, "NASA Directives System," dated July 19, 1999, states that NASA shall
document its policy statements, guidance, or implementing instructions in the NASA
Directives System, which consists of NPD's and NPG's. In relation to these directives,
NPG 1400.1B, "NASA Directives System Procedures and Guidelines," dated April 25,
2000, states that the objectives of directives management are to document Agency and
Center policies, procedures, and guidelines and to provide Agency managers with the
means to effectively and efficiently convey instructions to employees, customers, and
suppliers.

NASA FBC Policies and Guidance

FBC is a management policy that needs to be institutionalized into the Agency's
management structure. Although NASA has attempted to provide some guidance on
implementing FBC, the guidance is not sufficient to successfully implement FBC and
does not substitute for formal policy and guidance. Specifically, NASA has not issued
policies and guidance that:

•    define FBC,

•    establish procedures and methodology on how NASA employees at all levels should
     implement FBC, or



20
   NASA Policy Directive 8730.3, "NASA Quality Management System Policy (ISO 9000)," dated June 8,
1998, states that NASA policy is "to obtain and maintain third party certification to the ISO 9001 standard
for all key processes at each of the NASA Centers and Headquarters."
21
   The American Society for Quality Control issued Q9001-1994, "American National Standard: Quality
Systems -- Model for Quality Assurance in Design, Development, Production, Installation, and Servicing,"
on August 1, 1994. This American National Standard establishes a quality assurance model by which a
supplier can demonstrate its capability. Although the standard applies to suppliers, NASA has adapted it to
apply to the Agency. The American Society for Quality Control is the American National Standards
Institute member body that is responsible for quality management and related standards. The American
National Standards Institute is the U.S. member body of the ISO.
22
   NPD's are policy statements that describe "what" is required by NASA management to achieve NASA's
vision and mission.
23
   NPG's are the "how to" instructions and guidelines that implement NASA policy.

                                                     4
•    provide adequate information on what the Agency considers an acceptable level of
     risk and how risk should be balanced against schedule and cost in an FBC
     environment.

NASA Policy Documents. Only one NASA policy document mentions FBC. NPG
7120.5A, "NASA Program and Project Management Processes and Requirements,"24
dated April 3, 1998, briefly refers to FBC, but does not define it or provide procedures or
methodologies in sufficient detail to be useful for FBC implementation. 25 The preface of
NPG 7120.5A states that "[t]ailoring 26 is a mechanism to encourage innovation and
achieve "faster, better, cheaper" products while meeting the expectations of the customer"
and that the results of tailoring are to be documented in program commitment
agreements, program plans, and project plans. However, the NPG does not explain how
this should be accomplished in relation to FBC.

Also, Section 1.1.2 of the NPG mentions FBC, but does not provide guidance on how
employees should implement it:

        Today, a major emphasis is being placed on executing projects "better, faster, cheaper,"
        and these projects differ significantly from earlier large, lengthy development projects.
        The disciplined approach of program and project management is now being applied to
        technology development programs to enable future Agency missions. The reinvention of
        Government initiative also allows streamlined, new ways of doing business that should
        be incorporated into the NASA methodology.

Administrator's Memorandum. After several Mars Program missions failed in 1999, 27
the NASA Administrator issued a memorandum on February 7, 2000, that discusses
ensuring mission safety and reducing risk by appropriately balancing resources and
requirements. 28 Although the memorandum does not define FBC or discuss procedures
and methodologies for its implementation, the memorandum mentions FBC in relation to
good project management. However, the Agency has not incorporated the principles of
the memorandum into an NPG or NPD.




24
   The purpose of NPG 7120.5A is to establish the management system for processes, requirements, and
responsibilities for implementing NPD 7120.4B, "Program/Project Management," dated December 6, 1999.
25
   NASA plans to revise NPG 7120.5A. The revisions will be based on input from the NASA Office of
Inspector General as well as the recommendations of the NASA Integrated Action Team. The NASA
Integrated Action Team was tasked to define a plan to mitigate the root causes of NASA's recent mission
failures and enhance the probability of future mission success.
26
   "Tailoring" is defined in NPG 7120.5A as the documentation and approval of the adaptation of the NPG
7120.5A process and requirements to specific program or project needs.
27
   The MCO mission was launched on December 11, 1998, and was lost in September 1999; the MPL and
Deep Space 2 missions were launched on January 3, 1999, and were lost in December 1999. Appendix B
provides further information on these mission failures.
28
    The memorandum is entitled "Clarification on Cost Consideration in Project Management." Appendix C
provides excerpts from the memorandum's enclosure.


                                                   5
FBC Task Review. The FBC Task review defined FBC and identified "Rules of
Engagement for FBC Projects."29 The definition and Rules of Engagement provide
prudent, common sense guidance on how to successfully implement FBC. At the time
we issued a draft of this report, the Agency had not yet refined the definition and the
Rules of Engagement in developing formal NASA policy and/or guidance on FBC.

Plans for Additional Agency FBC Policies and Guidance

When we issued a draft of this report, the Agency had not yet developed specific FBC
policies and guidance and had no future plans to do so. NASA considered FBC to be a
philosophy that was sufficiently accommodated by NPG 7120.5A30 through "tailoring."
NASA relied on NPG 7120.5A, the Administrator's February 2000 memorandum, and the
results of the FBC Task review to communicate FBC policy throughout the Agency.

Enterprise and Center FBC Policies and Guidance

As part of this audit, we contacted representatives for the Space Science Enterprise 31 and
the Earth Science Enterprise and for Goddard Space Flight Center (Goddard), Jet
Propulsion Laboratory (JPL), Lyndon B. Johnson Space Center (Johnson), and George C.
Marshall Space Flight Center (Marshall). We asked these representatives to develop
Enterprise and Center responses to questions 32 about FBC policies, procedures, plans, and
guidelines and to document how FBC has been incorporated into their strategic
management process. In addition, we interviewed Earth and Space Science
program/project managers at Goddard and Marshall about FBC and its implementation at
those Centers.

NASA Strategic Enterprises. As discussed earlier, some minimal guidance on FBC
exists, but Space Science and Earth Science Enterprise representatives stated that NASA
Headquarters had not developed policies, procedures, or guidance that specifically
address FBC. In addition, the Space Science and Earth Science Enterprises have not
developed policy or guidance of their own to implement FBC.


29
   The FBC Task review final report, Attachment A, "Rules of Engagement for FBC Projects," lists 14 rules
that include: (1) form and motivate an excellent team, a mix of experience and bright energetic youth
bringing enthusiasm and new methods; (2) establish a challenging but realistic mission target; (3) size
mission scope within resources to provide for acceptable risk and adequate reserves; and (4) test, test, test,
and test as you fly. Appendix D of this report lists the 14 rules.
30
   The NASA Administrator assigned the NASA Chief Engineer stewardship responsibility for the "Provide
Aerospace Products and Capabilities" crosscutting process, including responsibility for NPG 7120.5A.
31
   The NASA Strategic Plan established a framework for making management decisions by separating the
Agency's programs into the following four strategic Enterprises: Human Exploration and Development of
Space, Space Science, Earth Science, and Aerospace Technology. On September 29, 2000, NASA
announced a restructuring of the Office of Life and Microgravity Sciences and Applications. This
restructuring moved some functions from the Human Exploration and Development of Space Enterprise to
a new Enterprise, Biological and Physical Research, which focuses on scientific research.
32
   We used questionnaires to obtain information on FBC implementation from the Space Science and Earth
Science Enterprises and from Goddard, Marshall, and JPL. In addition, we used telephone interviews to
obtain information from Marshall and Johnson. See Appendix A for further details.

                                                      6
NASA Centers. Center representatives also stated that they have not received any
guidance from NASA Headquarters on how to implement FBC. Goddard and Marshall
project managers indicated that they developed their own informal procedures to
implement what they considered an FBC approach. JPL representatives stated that
reengineering of the project development processes at JPL has produced new policies,
procedures, and processes to effect the evolution of JPL's FBC concept. JPL is also
reviewing and enhancing its policies and procedures on peer review and mission
assurance in operations, consistent with its understanding of FBC. During our review, we
noted one JPL directive that provides specific guidance on FBC. JPL D-13277,
"Risk/Requirements Trade-Off Guidelines for Faster, Better, Cheaper Missions," dated
February 1998, provides guidance for a subset of 22 product assurance activities 33 that
have been deemed critical in a recent study to prioritize them.

Implementation of FBC

Without written policies or guidance that address FBC management policy, NASA
cannot effectively communicate FBC goals and implementation procedures to
program/project managers and contractors. This lack of direction could jeopardize
mission success, weaken accountability for results within NASA, and lead to additional
cost and delays. Program/project managers are ultimately responsible for the success of
their programs/projects and, therefore, should be provided with clear policies and
guidance regarding FBC. Some program/project managers have developed their own
definitions and policies for implementing FBC but may not be accomplishing the goals
and objectives envisioned by the NASA Administrator.

Mission Success. Insufficient policies, procedures, and guidance can adversely affect
mission success. The Mars Program Independent Assessment Team34 reviewed three
successful 35 and three failed Mars Program missions. 36 As part of the review, the team
found that NASA had not defined FBC or established implementation policy and/or
procedures, and as a result, project managers were left to establish FBC policy for their
projects. The team's report states:

        … NASA, JPL, and [the Mars Program contractor] have not completely made the
        transition to FBC. They have not documented the policies and procedures that make up
        their FBC approach; therefore, the process is not repeatable. Rather, project managers
        have their own and sometimes different interpretations. This can result in missing
        important steps and keeping lessons learned from others who could benefit from them .…
        The [Mars Program Independent Assessment Team] believes, that while 100 percent


33
   Examples of the 22 product assurance activities are: acoustic noise, pyrotechnic shock, and flight
electronic parts inspection.
34
   The Mars Program Independent Assessment Team, established by the NASA Administrator, reviewed the
Mars Program and identified lessons learned for use in the future Mars Program. The review emphasized
the strengths and weaknesses of individual projects within the Mars Program and the relationships among
the participants. The team started the review in January 2000 and issued its report in March 2000.
35
   The three successful Mars Program missions reviewed were the Mars Global Surveyor, Mars Pathfinder,
and Deep Space 1.
36
   The three failed Mars Program missions reviewed were the MCO, MPL, and Deep Space 2. See also
footnotes 6, 7, and 8.

                                                   7
           mission success is not a realistic target, with the right policies and procedures in place,
           and with a commitment to follow them, the vast majority of future FBC missions will be
           successful.

Appendix E compares key attributes of the six FBC missions as reported by the Mars
Program Independent Assessment Team. The comparison shows that the each mission
interpreted FBC differently. Agencywide policies and guidance would help ensure that
all NASA program/project managers implement FBC in a consistent, prudent manner.

Without policies and guidance for FBC implementation, NASA project managers may
not appropriately balance cost and schedule against risk. The MCO Mishap Investigation
Board 37 found that as implementation of FBC at NASA evolved, the focus on cost and
schedule reduction increased risk beyond acceptable levels on some NASA projects.
Agencywide policies and guidance for FBC could clarify acceptable tradeoffs between
cost and schedule reduction, risk, and other subjective areas of FBC.

Conclusion

Insufficient policies and guidance can adversely affect accountability for results. Without
sufficient FBC policies and guidance, NASA cannot establish clear lines of responsibility
for managing risk under FBC. Further, If NASA managers do not have policies and
guidance on how to implement FBC, they may stray from sound management practices
and subsequently have to redo project work to mitigate risk, which can lead to added cost
and schedule delays.

Recommendation, Management's Response, and Evaluation of
Response
1. The NASA Associate Deputy Administrator, in coordination with the Chief
   Engineer, should develop policies and guidance in NPG 7120.5A and other
   appropriate NPD's and NPG's to define FBC and to describe its implementation.

Management's Response. Partially Concur. The definition of FBC and appropriate
changes resulting from the NIAT report will be included in revision B of NPG 7120.5
and other NASA policy documents as appropriate. However, FBC should not be a
specific subset of current management policies. The complete text of management's
response is in Appendix I.

Evaluation of Response. The planned actions are responsive to the recommendation.
The recommendation is resolved, but will remain undispositioned and open until the
corrective actions described in the NIAT report have been completed.

During our audit field work, we discussed the implementation of FBC with program and
project managers. A recurring theme in those discussions was that no guidance was
provided by NASA Headquarters to explain how to implement FBC. So the program and

37
     The Board presented its findings in, "Report on Project Management in NASA," dated March 13, 2000.

                                                       8
project managers were implementing their interpretation of what they though was FBC.
It is not our intention that management segregate FBC programs and projects and
establish separate policies for these programs and projects, rather that the Agency
develop sufficient policies and guidance on FBC so program and project managers have a
clear understanding of how FBC can be applied in their program or project.




                                          9
Finding B. NASA Strategic Management for Faster, Better, Cheaper
NASA has not sufficiently incorporated FBC goals, objectives, or metrics into its
strategic management process. NASA considers FBC to be a management philosophy,
applicable to all Agency organizations, that does not require coverage in the strategic
management process, including related plans and reports. Also, the recent FBC Task
review was the only FBC planning NASA management performed. As a result, NASA's
attempt to complete missions in a faster, better, and cheaper manner is outside the
strategic management and planning process, and progress toward achieving FBC cannot
be measured or reported.

Federal and Agency Strategic Planning Requirements

Federal and NASA guidance require the Agency to describe in its strategic planning
documents the operational processes and implementation strategies it plans to use to
achieve goals and objectives.

Government Performance and Results Act. The Government Performance and Results
Act of 1993 (GPRA) 38 requires agencies to prepare strategic plans. The strategic plans
are to include a description of how the goals and objectives are to be achieved, including
a description of the operational processes, skills and technology, and the human, capital,
information, and other resources required to meet those goals and objectives.

Office of Management and Budget. OMB Circular A-11, "Preparation and Submission
of Budgets," dated July 2000, requires that agency strategic plans describe the processes,
skills, technologies, and various resources that will be used to achieve the general goals
and objectives.

NASA Directives. NPG 1000.2, "NASA Strategic Management Handbook,"39 dated
February 2000, Section 3.4, states that Enterprise Strategic Plans will elaborate on their
respective missions and goals, in alignment with NASA's Strategic Plan, 40 with detailed
objectives, implementing strategies, and brief descriptions of their principal programs
and/or processes.

FBC Task Review. The FBC Task review 41 was the only FBC planning NASA
management had performed at the time of our audit field work. The FBC Task review
concluded, as part of its definition of FBC, that FBC "applies to everything and
everyone."

38
   GPRA provides for the establishment of strategic planning and performance measurement in the Federal
Government.
39
   The NASA Strategic Management Handbook describes the strategic management roles and relationships
of NASA's various organizational elements, from the Administrator to all NASA employees. NASA's
Strategic Enterprises, Agencywide Functional Offices, and Crosscutting Processes are the framework for
NASA's Strategic Management System. (See footnote 70 for details on Crosscutting Processes).
40
   NPG 1000.2, Section 3.3, states that NASA's Strategic Plan articulates the Agency's vision, goals, and
objectives as well as Agencywide strategies for achieving them.
41
   Finding A contains additional information on the FBC Task review objectives and results.

                                                   10
Alignment of NASA Strategic Management and FBC

FBC is a management policy that should be institutionalized into the Agency's
management structure. NASA does not cover FBC goals in adequate detail in its current
strategic management documents. NASA strategic management documents include a
handbook, a strategic plan, performance plan, performance report, Enterprise strategic
plans, and Center implementation plans. 42 FBC coverage in these documents is
inconsistent, insufficient, and in some cases nonexistent and does not align with the
NASA Strategic Plan. There is no direct link for FBC from the Agency Strategic Plan to
the Enterprise Strategic Plans and then to the Center Implementation Plans.

For example, NASA does not adequately cover the publicized FBC goals of its Discovery
Program, 43 a major Space Science Enterprise program, in its current strategic
management documents. NASA has publicly announced the Discovery Program goals of
reducing average development cost to below $150 million (1992 dollars) per mission and
average development-to-launch time to below 36 months per mission. However, the
NASA FY 2001 Performance Plan does not mention these goals, although the FY 1999
Performance Plan does (see Appendix F). Additionally, the FY 1999 Performance Plan
and Report include performance targets relating to the Discovery Program's FBC goals, 44
but the FY 2001 Performance Plan does not.

NASA Considers Current Coverage of FBC Adequate

NASA management considers the current FBC coverage in strategic management
documents satisfactory despite the fact that there is limited FBC coverage for the Space
Science and Earth Science Enterprises and no FBC coverage for the Human Exploration
and Development of Space and Aerospace Technology Enterprises. However, the FBC
coverage is inadequate for strategic planning purposes because, contrary to the FBC
Task's definition of FBC, that it applies to everything and everyone, FBC has not been
applied to all Enterprises. 45 The Center implementation plans also do not provide
sufficient FBC coverage. None of the strategic planning documents provide FBC goals
and objectives or strategies the Agency will use to achieve the goals and objectives. In
addition, there is no discussion of metrics to measure progress toward the goals. The
FBC Task final report, which is considered an FBC implementation plan, also does not
discuss metrics.



42
   Appendix F provides definitions for each strategic management document and an analysis of FBC
coverage in those documents .
43
   The Discovery Program in an ongoing NASA program of frequent, small, planetary missions that perform
high-quality scientific investigations. The program seeks to reduce total mission and life-cycle costs and to
improve performance through the use of new technology and control of design, development, and
operations costs. Examples of Discovery missions are the Lunar Prospector, the Mars Pathfinder, and the
Near Earth Asteroid Rendezvous missions.
44
   The FBC performance targets were in the "Provide Aerospace Products" and "Capabilities Crosscutting
Process" sections of the NASA FY 1999 Performance Plan and Performance Report.
45
   The Biological and Physical Research Enterprise was established on September 29, 2000, and is not
included in the strategic management documents discussed in this report.

                                                     11
Insufficient Strategic Management Hinders FBC Implementation

NASA is not using strategic management documents to describe operational processes
and implementation strategies the Agency plans to use to achieve the goals and objectives
of FBC. This has resulted in inadequate performance measures and accountability within
NASA's Strategic Enterprises. In addition, NASA cannot measure its progress in
achieving the objectives of FBC through its performance plan or report this progress to
internal and external organizations. This is especially true for the Human Exploration
and Development of Space and Aerospace Technology Enterprises' sections of the NASA
FY 2001 Performance Plan, which do not address FBC.

Conclusion

NASA should fully incorporate FBC policy into its strategic management process.
NASA has not established adequate FBC goals, objectives, and metrics. According to the
FBC Task report, FBC applies to everything and everyone. However, this does not mean
that FBC goals, objectives, and metrics need to be equally and uniformly established for
each Enterprise, program, or project in NASA. The degree to which FBC is applied to an
Enterprise depends on the nature of the Enterprise's mission. At a minimum, the NASA
performance plan should describe how each Enterprise will incorporate FBC into its
implementation strategy. Also, the FBC goals and performance targets should be in the
form of trends. For example, a performance target "faster" could be to decrease the
average mission development time by a stated percentage.

Recommendation, Management's Response, and Evaluation of
Response
2. The Associate Administrator for Policy and Plans, in coordination with the
   Enterprise heads, Chief Engineer, and the Chief Financial Officer, should fully
   incorporate FBC into the strategic management process, including all key
   documents. Specifically, the NASA annual performance plans should fully
   describe each Enterprise's implementation strategy for achieving FBC.

Management's Response. Nonconcur. Management responded that the Agency has
already appropriately reflected FBC in its strategic documentation by the challenging
goals that are communicated in the Agency and Enterprise Strategic Plans. NASA's
Strategic Plan 2000 states we will "conduct more frequent missions for fewer dollars"
and "do more with less as we strive to achieve our mission in ways that are faster, better,
cheaper."

Evaluation of Response. Management's comments are nonresponsive. Although FBC is
mentioned in various documents as noted in Appendix F of this report, the intent of our
recommendation is that the documents should contain a clearer description of what FBC
is and how it affects program and project management. In addition, top-level documents
should flow down to program plans so that the roles and responsibilities of FBC are
defined and responsible individuals can be held accountable for the results. Our


                                             12
interviews of representatives from Goddard, Johnson, JPL, and the Offices of Earth
Science and Space Science indicated that adequate guidance had not been received from
NASA Headquarters on how FBC should be implemented. Program/project personnel
stated that the program plans were tailored to their interpretation of FBC. The approach
of communicating FBC implicitly through challenging goals is not getting a clear
message to the program/project managers. Therefore, we disagree with management's
position that FBC is appropriately reflected in strategic documentation and maintain our
position that the FBC should be fully incorporated into all key documents. We request
that management reconsider its position and provide additional comments.




                                           13
Finding C. Fact-Based Human Resource Management
NASA has not adequately incorporated strategic human resources management into its
Strategic or Performance Plans, which directly impacts FBC program and project
management. Faced with budget cuts and downsizing since the mid-1990's, NASA has
focused on overall staff reduction and has not given sufficient consideration to the
alignment of human resources 46 with its strategic goals. Hence, NASA has not
determined the appropriate number of staff and competencies needed to effectively carry
out strategic goals and objectives for its programs, most notably the FBC Mars Program,
and may lose core competencies.

Strategic Human Resources Management Is Essential

As required by the Federal Managers' Financial Integrity Act of 1982, the GAO issued
standards for internal control in Government. The standards define the minimum level of
quality acceptable for internal control in Government and provide the basis against which
internal control is to be evaluated. GAO recognized that effective management of human
resources is essential to achieving results and is an important part of internal control. As
part of workforce planning, management should consider how best to retain valuable
employees, plan for their eventual succession, and ensure continuity of needed skills and
abilities.

A renewed focus on internal control was prompted by the GPRA, which requires
agencies to clarify their missions, set strategic and annual performance goals, and
measure and report on performance toward those goals. Internal control plays a
significant role in helping managers achieve those goals.

If the Government is to continue to successfully and effectively improve its operations,
agency heads must make a conscious effort to integrate strategic human resources
management into their agencies' planning and decision-making process. 47

Federal Requirements

GPRA requires the linkage between strategic goals and the human resources needed to
accomplish goals. The current OMB Circular A-11 places increased emphasis on
describing human resources and training initiatives. A recent Presidential memorandum
also requires that human resource management be fully integrated into agency planning.
In addition, GAO stated in a recent review that NASA's Performance Plans could be
improved by linking the strategic goals to specific resources.




46
   Human resource alignment means integrating decisions about employees with decisions about the results
the organization is trying to obtain.
47
   The Office of Personnel Management's Office of Merit Systems Oversight and Effectiveness, provides
detailed explanations for this type of integration in the publication on Strategic Human Resources
Management: Summary Report of a Roundtable Discussion, October 22, 1998.

                                                   14
GPRA. GPRA requires Federal agencies to prepare strategic plans. The strategic plans
are to include a description of how goals and objectives are to be achieved, including a
description of the operational processes, skills and technology, and the human, capital,
information, and other resources required to meet those goals and objectives.

Office of Management and Budget. OMB Circular A-11 requires that agency strategic
plans describe the processes, skills, technologies, and various resources that will be used
to achieve the general goals and objectives. In addition, the Circular requires that the
annual plan include performance goals covering major human resources strategies, such
as recruitment, retention, skill development, and training.

Presidential Memorandum. On June 12, 2000, the President directed the heads of
agencies to fully integrate human resources management into agency planning,
budgeting, and mission evaluation processes and to clearly state specific human
resources, management goals, and objectives in the organization's strategic and annual
performance plans. Administration officials anticipate that substantial numbers of
Federal employees could retire in the next 5 years and are looking for better ways to
manage a potential staffing crisis.

GAO Review. GAO reviewed and reported on NASA's Fiscal Year 1999 and 2000
Performance Plans. 48 GAO determined that the plans complied with the requirements of
GPRA, but that the plans could be improved by linking the strategic goals to specific
resources rather than NASA's higher level presentation of identifying funding
requirements by Enterprise. By not linking strategic goals to the human resources that
accomplish the goals, NASA has no assurance that staffing is aligned with strategic goals
and that the workforce is used appropriately and managed effectively.

Linking Strategic Goals and Human Resources

NASA has not adequately addressed human resources management in the Agency
Strategic Plan, the Enterprise Strategic Plans, or the Center Implementation Plans. 49
None of these plans show a clear linkage between strategic goals and the human
resources needed to accomplish the goals. Also, the Agency and Enterprise Strategic
Plans do not consider strategic human resource management issues such as how best to
retain valuable employees, plan for their eventual succession, and ensure continuity of
needed skills and abilities.




48
   The GAO reported its results in "Managing for Results Observations on NASA's Fiscal Year 1999
Performance Plan," GAO/NSIAD-98-181, dated June 1998; and "Observations on NASA's Fiscal Year
2000 Performance Plan for Fiscal Year 2000," NSIAD-99-186R, dated July 20, 1999.
49
   Appendix A discusses the documents we reviewed, Appendix F provides definitions for the each of the
strategic management documents, and Appendix G discusses the analysis of human resources coverage in
NASA's strategic management documents .

                                                  15
Impetus for NASA Downsizing Efforts

Since NASA was established in 1958, its civil service workforce has fluctuated widely.
In 1967, during the Apollo program, the workforce numbered about 35,900. By 1992, as
a result of workforce reductions, the workforce totaled about 25,000. After 1992,
NASA's workforce decreased again due to the Government-wide National Performance
Review50 and the NASA internal "Zero-Base Review." The FBC management process
also affected the workforce by encouraging program managers to do more with less.

National Performance Review. In 1993, the National Performance Review
recommended a reduction of Federal employees by 1999. As part of its reinvention
process, NASA substantially reduced total personnel through a series of management
actions, including two employee buyouts. The two buyouts resulted in a reduction of
civil service staffing by more than 2,600. Other factors, including attrition, reduced the
total civil service full-time staffing level at NASA from 24,030 in January 1993 to 21,060
in April 1995.

Zero-Base Review. In May 1995, an internal NASA review, the "Zero-Base Review,"
introduced proposals to enable the Agency to meet the additional $5 billion reduction in
funding set by the 1996 budget. Under the review team's findings, NASA's total civil
service employment level would be cut to approximately 17,500 by the year 2000. This
would be the lowest level of civil servants at NASA since 1961. In addition, the budget
reductions would cut an estimated 25,000 contractor personnel.

FBC Management Process. Unlike the National Performance Review and the Zero-
Base Review, the FBC management process did not specifically prescribe staff
reductions. It did, however, increase the total number of missions and shorten the
development time. Because FBC encouraged managers to do more with less, additional
staff was not added to handle the increased workload.

Effects of NASA's Downsizing Efforts

If Federal downsizing was only about reductions in personnel, workforce data shows that
NASA has been successful. However, the downsizing was to occur in conjunction with
reinvention. Mission-critical employees were to be retained, while positions no longer
consistent with the Agency's future goals were to be eliminated.

By 1998, the effects of NASA's downsizing efforts began to take their toll. The
downsizing affected program delivery because managers could not recruit new staff to
correct skill imbalances and to bring new ideas to the workforce. In addition, the
Agencywide buyouts encouraged the loss of highly experienced managers and created a
void in management and technical expertise. Staffing problems began to surface in such


50
  In 1993, the Vice President led a team of career Government executives and outside management
consultants to create a Government that works better and costs less. This initiative is called the National
Performance Review.

                                                     16
efforts as the NASA Workforce Restructuring Plan51 and Core Capability Assessment. 52
The effects of NASA's downsizing came to a national attention in late 1999, when NASA
had three unsuccessful missions in the Mars Program. 53 The MCO mission failed in
September 1999. The mishap investigation report54 identified inadequate operations
staffing and inadequate training as contributing causes for the failure. In December 1999,
the MPL was lost and the twin Deep Space 2 probes disappeared. The Mars Program
Independent Assessment Team55 concluded that both the MCO and MPL had inadequate
resources to accomplish requirements (see Appendix E).

Human Resource Challenges Throughout NASA

Although the human resource management problems associated with the FBC Mars
Program have been the most widely publicized, we noted that similar problems exist for
other NASA programs. As part of this audit, we contacted representatives at Goddard,
JPL, Johnson, and Marshall as well as the Offices of Space Science and Earth Science.
We asked these representatives to discuss human resource management issues such as
skill assessment, recruitment, training, and the effect the FBC approach has had on
managing human resources. The representatives identified recruiting, hiring, and
retaining employees as areas of concern (see Appendix H). In addition to the staffing
concerns that have been identified in conjunction with FBC, staffing of the Expendable
Launch Vehicle Program Office and the Space Shuttle has been raised in reports issued
by the NASA Office of Inspector General and GAO, respectively.

NASA Office of Inspector General Report. On February 23, 2000, the NASA Office
of Inspector General issued, IG-00-009, "Staffing of the Expendable Launch Vehicle
Program Office at the Kennedy Space Center." The report notes that the Office of Space
Flight did not integrate strategic human resources management into the staff planning of
the Expendable Launch Vehicle Program Office at Kennedy. As a result, the Expendable
Launch Vehicle Program Office may be unable to meet current customer demand without
the use of overtime and compensatory time.

GAO Report. The GAO issued, GAO/NSIAD/GGD-00-186, "Space Shuttle: Human
Capital and Safety Upgrade Challenges Require Continued Attention," on August 15,
2000. Although the report makes no recommendations, it notes that NASA recognizes

51
   The Workforce Restructuring Plan outlines the actions NASA has taken and plans to take during the
transition to a civil service workforce that is both smaller and more focused on research and development.
This is the last of three such reports NASA submitted to the House and Senate Committees on
Appropriations to meet the requirement set forth in the Conference Report accompanying H.R. 3666, the
FY 1997 VA-HUD-Independent Agencies Appropriations Bill (House Report 104-812). The Conference
Report required NASA to provide a Workforce Restructuring Plan annually upon submission of each of the
Agency's budget requests for FY's 1998 through 2000.
52
   The NASA-wide Core Competency Assessment was undertaken in FY 1999 to define the requisite NASA
workforce skills in all critical areas to accomplish Agency missions.
53
   Appendix B provides a brief summary of the Mars Program failures .
54
   The results of the mishap investigation are documented in the Phase I Report Mars Climate Orbiter
Mishap Investigation, dated November 10, 1999.
55
   See footnote 13.

                                                   17
that "in-house workforce reductions had gone too far [and] that NASA has discontinued
downsizing and begun to address critical staffing needs [in the Space Shuttle program]."

Alignment of Human Resources with Strategic Goals

The FBC Task review and the Administrator's recent comments focus on relevant staff
issues but do not recognize that resources should be linked to Agency and Enterprise
strategic goals in order to determine the appropriate number and skills of required staff.
In addition, there have been several efforts that have focused on linking resources at the
Center-level and more recently, the Agency has discussed developing an Agencywide
approach.

FBC Task Review. In March 2000, the FBC Task review report recommended that
NASA place higher priority on people acquisition, motivation, and training. The report
further noted that NASA is experiencing a talent drain due to retirements, downsizing,
and the loss of employees to industry. In congressional testimony that same month, the
FBC Task review leader emphasized placing a higher priority on acquisition, motivation,
staff training, incentives, and mentoring. 56

Administrator's Comments. In congressional testimony, the NASA Administrator
stated that NASA is at a time of major cultural change and rapid increase in the number
of programs under way. 57 The programs were staffed with next-generation program
managers without, in some instances, ensuring that they had been adequately trained and
mentored, both in terms of lessons learned and the use of revolutionary new tools and
techniques.

At a Senior Management Council meeting, the NASA Administrator also stated that he
had concerns that NASA is not adequately training the new teams running the new
programs. He further stated that people do not usually fail in jobs but that management
usually fails because it did not match the right person with the right skills to job
requirements and then properly train and coach them. 58 The Administrator also indicated
that NASA would be hiring an additional 1,850 people in the next 2 years. 59 Hiring
additional staff may ease some of the problems NASA is currently experiencing.
However, the only way to ensure that the workforce is adequate is by aligning staffing
with the Agency strategic goals and by ensuring that the right number of people
possessing the necessary skills are available to accomplish the strategic goals.




56
   Mr. Tony Spear led the FBC Task Review. On March 22, 2000, he presented testimony on NASA
management to the Senate Subcommittee on Science, Technology, and Space.
57
   On March 22, 2000, the Administrator presented testimony on NASA management to the Senate
Subcommittee on Science, Technology, and Space.
58
   The Administrator presented his staffing concerns in a January 6, 2000, Senior Management Council
Meeting.
59
   At a February 7, 2000, Senior Management Council meeting, the Administrator indicated that additional
staff would be hired.

                                                   18
Center-Level Efforts. Langley Research Center, Glenn Research Center, and Ames
Research Center have reached the staffing reduction goals established by the Zero Base
Review and have initiated hiring efforts. 60 As part of their workforce planning efforts,
these Centers assessed competency and strategic requirements and have made attempts to
align staffing with Center requirements. These Centers developed their approaches
independently of each other; consequently, they vary from Center to Center. However,
these Center-level efforts may be a starting point for reviewing lessons learned and
developing an Agencywide approach, which we believe is necessary.

Agencywide Effort. Representatives of the NASA Office of Human Resources and
Office of Chief Engineer have discussed changing the approach of NASA's core
competency effort from solving near-term personnel shortcomings at a Center level to
one that will take an Agencywide view of aligning staffing with the Agency's long-term
strategic goals. However, NASA has not yet determined when this effort will begin or
the composition of the team that will address these issues.

Workforce Planning

In the current environment of budget cuts, downsizing, and an aging Federal workforce,
workforce planning is extremely important in relation to increasing the Federal agencies'
overall ability to achieve their missions. NASA has gone from a workforce that it
considered too large to a workforce that it now considers too small, and staffing levels
have remained low due to NASA's FBC management policy. NASA should develop a
workforce transition plan that will identify current and future required skill sets,
determine how the workforce can obtain these skills, and set action plan milestones. 61
The workforce plan should complement the strategic planning process and not be a
separate effort. Workforce planning will assist in correcting the skill imbalances across
the Agency and will help align human resources with strategic goals. This will change
NASA's focus from recruiting more people to recruiting the right people. Developing
and implementing a workforce plan will bring NASA more in line with GPRA and the
Presidential memorandum to fully integrate human resources into strategic plans.

Conclusion

NASA's focus has been on workforce reduction since the mid-1990's. NASA's FBC
management policy continued to keep staffing levels low even though staffing shortfalls
were identified. Recently, NASA has reversed this trend with plans to increase staffing.
However, without linking staffing decisions to the Agency's strategic goals and
objectives, NASA cannot determine the appropriate skills or number of staff to meet
Agency goals and objectives. The understaffing of the MCO and MPL missions serves
as an example of the effect that inadequate human resources can have on the

60
   We reviewed information relating to the efforts of Langley Research Center, Glenn Research Center, and
Ames Research Center; however, other Centers may also be performing similar efforts.
61
   Although few agencies have strong workforce planning systems in place, the Social Security
Administration has developed a methodology to predict the number of actual retirements and is developing
a workforce transition plan as described.

                                                   19
accomplishment of strategic goals and objectives. NASA must incorporate strategic
human resources management into all aspects of strategic planning to ensure that Agency
goals can be achieved. In addition, NASA can strengthen its Performance Plan by fully
portraying how NASA's strategies and resources will help the Agency achieve its
performance goals and be more in line with the emphasis placed on human resources in
the current OMB Circular A-11 and the recent Presidential memorandum.

Recommendations, Management's Response, and Evaluation of
Response
3. The Associate Administrator for Policy and Plans, in coordination with the
   Enterprise heads and the Center Directors, should align human resources with
   strategic goals in Enterprise Strategic Plans and Center Implementation Plans.

4. The Associate Administrator for Policy and Plans, in coordination with the
   Enterprise heads, should describe in the Implementation Strategy sections of the
   NASA Annual Performance Plan how the Agency is implementing human
   resources management.

5. The Associate Administrator for Human Resources and Education, in
   coordination with the Enterprise heads and Center Directors, should develop a
   workforce strategy that will assess human resources management issues (that is,
   recruitment, training, awards, bonuses, promotions, retention, and succession
   planning) and develop meaningful data and data systems on which to base
   decisions tied to all aspects of human resource management.

Management's Response. Partially Concur. NASA strongly disagrees that FBC is
responsible for keeping staff levels low. The reduction in workforce and the skill
imbalance created by such a reduction combined with the increase in workload are
largely responsible for the challenges in staffing. However, the recommendations do
touch on issues that NASA agrees are very important.

The Enterprises are responsible for and do align human resources with Enterprise and
Center plans. Agency budget, program/project planning, and other Enterprise planning
processes include, as an integral element, consideration of resource needs (human, fiscal,
and facilities).

The Agency developed the fiscal year 2002 Performance plan with the knowledge
resulting from the Mars failures, the FBC reports, and the NIAT activity and will discuss
NASA human resources at a level that is appropriate for NASA's outcome-oriented
Agencywide Performance Plan.

NASA has conducted a core capability assessment and other similar activities that while
helpful, resulted in solving near-term human resource issues. However, the Agency has
begun a follow-on strategic resource planning activity, based on the Centers' future vision



                                            20
and mission, taking into account workforce and facilities needed. The result will provide
a plan for each Center that links staffing, funding resources, mission and activities and
core competencies.

The complete text of management's response is in Appendix I.

Evaluation of Response. Our report attributes the low staff levels at NASA to a
combination of the National Performance Review and the Zero-Base Review. In
addition, our report states that FBC did not prescribe staff reductions, but increased the
workload and encouraged managers to do more with less. As stated in management's
response to this report, "the FBC emphasis resulted in a threefold increase in the number
of programs and projects that required more project managers and systems engineers." It
is not our intent to imply that FBC was the sole cause for the staffing problems but that it
contributed to the conditions identified.

Management did not provide planned corrective actions for Recommendation 3.
However, we consider the actions described in management's response to
Recommendation 5 sufficient to also meet the intent of Recommendation 3. Therefore,
this recommendation is considered resolved, but will remain undispositioned and open
until the corrective actions described below have been completed.

Although management did not fully concur with Recommendation 4, the planned actions
are responsive to the intent of the recommendation. The recommendation is resolved, but
will remain undispositioned and open until the corrective actions have been completed.

Based on further discussions with management on Recommendation 5, management will
assess the human resources management issues noted in the recommendation. In
addition, NASA is developing a database to track the workforce plan data. Therefore, the
recommendation is resolved, but will remain undispositioned and open until the
corrective actions have been completed.




                                             21
             Appendix A. Objectives, Scope, and Methodology
Objectives

The overall objective was to evaluate the implementation of the FBC policies for
acquisition management at NASA. Specifically, we assessed the policies and procedures
issued by NASA, including the Enterprises and Lead Centers, related to FBC acquisition
management and implementation of FBC acquisition policies and procedures by NASA
program and project management.

Scope and Methodology

The audit included a review of NASA's FBC philosophy. We reviewed the history of
FBC and the guidance that NASA has issued. We sent questionnaires to points of contact
at Goddard, Marshall, JPL, Johnson, and the Space Science and Earth Science Enterprises
to gain an understanding of FBC policies, procedures, plans, and guidelines and of
whether FBC has been incorporated into NASA's strategic management. We interviewed
program and project personnel at Goddard and Marshall to obtain their understanding of
FBC and implementation processes at those Centers. In addition, we reviewed the FBC
Task review final report, NASA mishap/failure investigation reports, and congressional
testimony on those reports. We did not review the action plans being developed by the
NASA Integrated Action Team. The NASA Integrated Action Team planned to report its
results by August 2000; however, it was not issued until December 21, 2000, after the
draft of this report was issued.

We did not rely on computer-processed data to achieve the audit objectives.

Government Performance and Results Act

The Government Performance and Results Act of 1993 (GPRA) directs Executive Branch
agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, manage and measure results to justify
appropriations and authorizations, and design budgets that reflect strategic missions.
GPRA also requires agencies to prepare annual performance plans that establish the
connections between the long-term strategic goals outlined in their strategic plans and the
day-to-day activities of program managers and staff. Finally, GPRA requires that each
agency report annually on the extent to which it is meeting its annual performance goals
and the actions needed to achieve or modify goals that have not been met. We found that
FBC has not been adequately documented in NASA's policies and guidance or strategic
plan. In addition, there is not a clear linkage between staffing and the strategic goals of
the Agency.




                                            22
                                                                                       Appendix A

Management Controls Reviewed

We reviewed the following management controls:

•    NASA's strategic planning documents:
     - NASA's Fiscal Year 1998 Strategic Plan with 1999 Interim Adjustments
     - NASA's Fiscal Year 2000 Strategic Plan Concurrence Draft, dated June 5, 2000 62
     - NASA's Fiscal Year 1999 Performance Report
     - NASA's Fiscal Year 2000 and 2001 Performance Plans
     - Earth Science Enterprise Strategic Plan 1998-2002, dated October 1998
     - Space Science Enterprise Strategic Plan, dated November 1997
     - Aerospace Technology Enterprise Strategic Plan 1995-2000, dated April 1995
     - 1996 Human Exploration and Development of Space Enterprise Strategic Plan,
        dated January 1996
     - Ames Research Center - Center Implementation Plan, dated January 2000
     - Dryden Space Flight Center - Center Implementation Plan, dated March 1, 1998
     - Glenn Research Center - Center Implementation Plan, FY 2000
     - Goddard Space Flight Center - Center Implementation Plan, dated October 1998
     - Jet Propulsion Laboratory - Center Implementation Plan, FY 2000
     - Johnson Space Center - Center Implementation Plan, dated September 1997
     - Kennedy Space Center - Center Implementation Plan, dated February 2000
     - Langley Research Center - Center Implementation Plan, 2000
     - Marshall Space Flight Center - Center Implementation Plan, dated September
        1998
     - NASA Procedures and Guidelines (NPG) 1000.2, "NASA Strategic Management
        Handbook," March 5, 1999
•    Government Performance and Results Act of 1993
•    Office of Management and Budget (OMB) Circular A-11, "Preparing and Submitting
     Budget Estimates," dated July 19,1999
•    OMB Circular A-123, "Management Accountability and Control," dated June 21,
     1995
•    General Accounting Office, "Standards for Internal Control in the Federal
     Government," dated November 1999
•    NASA Policy Directive (NPD) 1400.1F, "NASA Directives System," dated July 19,
     1999
•    NPG 1400.1B, "NASA Directives System Procedures and Guidelines," dated
     April 25, 2000
•    NPG 7120.5A, "NASA Program and Project Management Processes and
     Requirements," dated April 3, 1998



62
 The "NASA's Fiscal Year 2000 Strategic Plan," NPD 1000.1b, was issued in final form on September 27,
2000. We reviewed the final version and found no changes that would impact the findings in our report.

                                                 23
Appendix A

We considered management controls to be adequate except that FBC has not been
adequately documented in NASA's policies and guidance or strategic planning process.
In addition, there is not a clear linkage between staffing and the strategic goals of the
Agency.

Audit Field Work

We performed audit field work from February through November 17, 2000. We
performed the audit in accordance with generally accepted government auditing
standards.




                                            24
               Appendix B. Summary of Mars Program Failures

The Mars Climate Orbiter (MCO) was launched in late 1998, followed by the Mars Polar
Lander (MPL) and Deep Space 2 launched in early 1999. The MCO did not achieve
Mars orbit because of a navigation error, resulting in the spacecraft entering the Mars
atmosphere instead of going into the planned orbit. The "MCO Mishap Investigation
Board Phase I Report," dated November 10, 1999, provides details on the cause of the
failure and corrective action. The following is a summary of the MCO findings. 63

        Spacecraft operating data needed for navigation were provided to the Jet Propulsion
        Laboratory navigation team by prime contractor Lockheed Martin in English units rather
        than the specified metric units. This was the direct cause of the failure. However, it is
        important to recognize that space missions are a "one strike and you are out" activity.
        Thousands of functions can be correctly performed and one mistake can be mission
        catastrophic. Mistakes are prevented by oversight, test, and independent analysis, which
        were deficient for MCO.

        Specifically, software testing was inadequate. Equally important, the navigation team
        was understaffed, did not understand the spacecraft, and was inadequately trained.
        Navigation anomalies (caused by the same units error) observed during cruise from
        Earth to Mars were not adequately pursued to determine the cause, and the opportunity
        to do a final trajectory correction maneuver was not utilized because of inadequate
        preparation.

        MPL and the two Deep Space 2 microprobes were integrated on a common cruise stage
        for the trip from Earth to Mars. Separation of the microprobes and the lander was
        planned to occur about 10 minutes prior to the planned Mars landings. The design of
        the lander precluded any communications from the period shortly before separation
        from the cruise stage until after Mars landing. The planned communications after
        landing did not occur, resulting in the determination that the MPL mission had failed.
        Extensive reviews, analyses, and tests have been conducted to determine the most
        probable cause of the MPL failure. This is documented in the "Report on the Loss of
        the Mars Polar Lander and Deep Space 2 Missions." Several possible failure causes are
        presented, which include loss of control due to spacecraft dynamic effects or fuel
        migration, local characteristics of the landing site beyond the capabilities of the lander,
        and the parachute covering the lander after touchdown. Extensive tests have
        demonstrated that the most probable cause of the failure is that spurious signals were
        generated when the lander legs were deployed during descent. The spurious signals
        gave a false indication that the lander had landed, resulting in a premature shutdown of
        the lander engines and the destruction of the lander when it crashed into the Mars
        surface.




63
 This summary is in the "Mars Program Independent Assessment Team Summary Report," dated
March 14, 2000.

                                                    25
       Appendix C. Clarification on Cost Considerations in Project
                             Management

On February 7, 2000, the NASA Administrator issued a memorandum, "Clarification on
Cost Consideration in Project Management." The memorandum states that, "resources,
including cost, must be balanced against mission requirements and the project's return on
investment." The Administrator provided further clarification in an enclosure to the
memorandum. Excerpts from this enclosure follow:

       Faster, better, cheaper does not mean breaking the rules of good project management….

       We all must recognize that restructure or cancellation is a better course of action than
       proceeding with a project with an unacceptably high level of risk.

       Cost constraints must never be used as an excuse for making a decision that violates good
       technical and management practices. Thorough systems engineering, technical peer
       review, simulation and modeling, quantitative risk analysis, design for system robustness,
       verification and validation tests, contingency operations, and telemetry during critical
       operations should be implemented on every project. While managing cost, projects
       should focus on safety and mission success and risk management…. However, we must
       never take unnecessary risks to save dollars.

       NASA's project management philosophy entrusts our Project Managers with great
       responsibility and decision-making authority within the bounds of the project agreements.
       We also hold Project Managers accountable for successfully planning and executing our
       missions. This responsibility includes taking those necessary steps to ensure mission
       safety and reduce risk by appropriately balancing resources and requirements in
       achieving success in innovative scientific and technological missions….




                                                  26
              Appendix D. Rules of Engagement for FBC Projects

The FBC Task review recommended that NASA establish the following "Rules of
Engagement for FBC Projects."64

        Form and motivate an excellent team, a mix of experience and bright energetic
        youth bringing enthusiasm and new methods.

                 Go to the best sources of expertise in NASA, industry, and academia.
                 Certify each team.
                 Co-locate physically and/or electronically; do concurrent engineering.
                 Team with Mission Assurance to develop the Project Mission Assurance
                 Plan.

        Establish a challenging but realistic mission target.

        Establish up-front agreements and maintain them.

        Size mission scope within resources to provide for acceptable risk and adequate
        reserves.

        Develop a thorough Project Plan according to NPG 7120.5A, tailoring its
        rules/guidelines to each project's needs.

        Conduct rigorous system and subsystem engineering to established standards (like
        JPL's Design Standards).

        Conduct continuous, rigorous risk assessment and mitigation throughout
        development and operations. Establish/maintain a mission risk signature.

        Balance use of available and advanced technology to maximize Mission Success.

        Establish/maintain     metrics     for   mission   risk   and   technical/cost/schedule
        performance.

        Test, test, test and test as you fly.

        Then train, train, train. Flight operations teams must contain key members of the
        development team.

        Best Project Development to Flight Operations arrangement: Designers become
        testers become operators.

        Work openly and candidly inside the team with thorough communication.
        Communicate openly and candidly externally to the project.

        Support yearly independent formal reviews, but also peer review all key decisions,
        results, and events, responding to all action items.




64
  The FBC Task review team reported its "Rules of Engagement for FBC Projects" as Attachment A to its
final report issued on March 13, 2000.

                                                      27
  Appendix E. FBC Mars Missions Showed Disparity in Management,
                Resources, Process, and Execution

The attributes of the six FBC missions reviewed by the Mars Program Independent
Assessment Team showed that the project managers were not implementing FBC in a
consistent manner. Agencywide FBC policies and guidance would help ensure a more
consistent, prudent implementation of FBC. The table below summarizes information on
the six FBC missions reviewed in the Mars Program Independent Assessment Team
report, dated March 14, 2000.


                        Mars                                                                  MPL and Deep
                       Global            Mars                 Deep                               Space 2
  Attributes          Surveyor         Pathfinder            Space 1            MCO           (2 Projects on
                                                                                                   One
                                                                                               Spacecraft)
Mission               Success            Success             Success           Failure            Failure
Results
Project             Experienced        Experienced        Inexperienced    Separate Project   Separate Project
Manager                                                   (but offset by    Managers for       Managers for
                                                          Jet Propulsion    Development,       Development,
                                                            Laboratory       Flight, and        Flight, and
                                                             (JPL) and       Operations         Operations
                                                           partnering*)
Requirements           Stable             Stable            Stable (but        Overly             Overly
                                                           requirements      challenging        challenging
                                                          descoped due          goals              goals
                                                             to delays)
Project Office        Adequate          Adequate          Adequate with      Inadequate         Inadequate
Staffing                                                       JPL and
                                                              partners
Cost and              Adequate          Adequate              Schedule       Inadequate         Inadequate
Schedule                                                      adequate
Margins                                                    (but cost not
                                                            mentioned)
Engineering            Sound             Sound              (Not rated)      Inadequate         Inadequate
Principles
Utilized
Continuity              Yes                Yes              Yes (but           No (for            No (for
from                                                      experienced         example,           example,
Development                                               development      separate project   separate project
to Operations                                              problems)          managers)          managers)



* The Deep Space 1 mission leveraged capabilities with various partners. The mission's partners included
other NASA Centers, other Government organizations, and industry.




                                                     28
        Appendix F. Analysis of FBC Coverage in NASA's Strategic
                       Management Documents

NASA does not cover FBC in adequate detail in its strategic management process and
documents. NASA strategic management documents include a handbook, a strategic
plan, 65 a performance plan, 66 a performance report, 67 Enterprise Strategic Plans, 68 and
Center Implementation Plans. 69 Although these documents mention FBC-related
concepts intermittently, there is no direct link of a NASA management plan for FBC
from the Agency Strategic Plan to the Enterprise Strategic Plans and then to the Center
Implementation Plans.

NASA Strategic Plan. Although the 1998 NASA Strategic Plan with 1999 Interim
Adjustments, dated March 5, 1999, provides some coverage, the coverage is not
sufficient. The Space Science Enterprise section mentions FBC but does not provide an
implementation strategy or specifics. Also, the Earth Science Enterprise section does not
mention FBC but does mention some FBC-related concepts such as development of
advanced technology to reduce cost. The Human Exploration and Development of Space
and Aerospace Technology Enterprise sections do not mention FBC or related concepts.
In the "Framework" section, the plan states that "effective implementation of [the
Crosscutting Processes]70 will help us deliver better products and services and cut
development time and costs in current and future programs." In the "Crosscutting
Processes" section, the plan states that "NASA is making significant progress in
achieving our mission and goals of doing business faster, better, and cheaper while never
compromising safety. Throughout the Agency, there are hundreds of examples of
programs, projects, and management systems being delivered with better service and at
lower costs."

Also, the draft NASA 2000 Strategic Plan, dated June 5, 2000, which is under review by
NASA offices for concurrence, does not provide any coverage of FBC.

65
   The NASA Strategic Plan articulates the Agency's vision, mission, goals, and objectives, as well as
Agencywide strategies for achieving them.
66
   Annual performance plans, required by GPRA, establish performance goals and measures covering a
given fiscal year and provide the direct linkage between an agency's longer term goals and day-to-day
activities.
67
   Annual performance reports, required by GPRA, report on the degree to which the performance goals
contained in the annual performance plan were met.
68
   Enterprise Strategic Plans elaborate on their respective mission and goals, in alignment with NASA’s
Strategic Plan, with detailed objectives, implementing strategies, and brief descriptions of their principal
programs and/or processes . Appendix A contains a list of the strategic management documents reviewed.
69
   The Center Implementation Plans define the relationship of the Agency and Enterprise strategic plans to
the Centers’ missions, Center of Excellence responsibilities, program-specific assignments, and support
activities. These plans also ensure alignment of the institutional, program, and functional activities at the
Centers with the Enterprise (Lead Center, Supporting Center) and functional (Principal Center)
assignments. Appendix A contains a list of the strategic management documents reviewed.
70
   NASA established Crosscutting Processes to provide support systems that enable each Enterprise to
develop and deliver Agency products and services to internal and external customers. All activity within
NASA is contained within one or more of these four Crosscutting Processes: provide aerospace products
and capabilities, generate knowledge, communicate knowledge, and manage strategically.

                                                      29
                                                                             Appendix F

Enterprise Strategic Plans. From 1995 through 1998, each Enterprise issued a strategic
plan. None of the strategic plans provide sufficient FBC coverage. Also, because the
strategic plans have not been updated, they are not linked to the current NASA Strategic
Plan.

Only one of the Enterprise Strategic Plans contains a direct reference to FBC and related
metrics. The "Space Science Enterprise Strategic Plan," dated November 1997, contains
a chart entitled "The Space Science Enterprise: Faster, Better, Cheaper," which states
that, "The Enterprise will fly missions faster and cheaper, continuing to reduce mission
costs and development time and increase the flight rate. The continued application of the
highest scientific standards and peer review will ensure that these missions are better as
well." The chart displays three performance measures, average spacecraft development
cost, average development time, and annual flight rate, for three periods: 1990 to 1994,
1995 to 1999, and 2000 to 2004.

The other three Enterprise Strategic Plans mention FBC-related concepts but do not
provide specifics or a link to the NASA Strategic Plan. The "Earth Science Strategic
Enterprise Plan 1998-2002," dated October 1998, contains a section entitled "Doing
Business in New Ways," which mentions meeting science objectives in cost-effective
ways and shortening development time, reducing cost, and facilitating the development
of commercial capabilities as new ways of doing business. The Human Exploration and
Development of Space Strategic Plan, dated January 1996, mentioned the following
FBC-related strategies: develop innovative advanced technology to support human
exploration and explore revolutionary space transportation systems and technologies to
improve capabilities and radically reduce the cost of human space flight. The Aerospace
Technology Enterprise "1995-2000 Strategic Plan," dated April 1995, briefly mentions
new ways of doing business as in "finding new ways of doing business is essential for
making leadership affordable."

Center Implementation Plans. The Center implementation plans do not provide
sufficient FBC coverage. Plans for only two Centers, Ames Research Center (Ames) and
John F. Kennedy Space Center (Kennedy), only briefly mention FBC. All Center
implementation plans describe Center contributions to applicable Enterprise strategic
goals and objectives, some of which relate to FBC concepts. However, because the
Enterprise Strategic Plans do not provide sufficient FBC coverage, the Center
Implementation Plans, which flow down from the Enterprise Strategic Plans, do not
provide sufficient FBC coverage either.

The Ames plan, dated January 2000, states that the FBC challenge requires Ames to
research automated reasoning for autonomous systems that will enable a new generation
of spacecraft to do more exploration at a much lower cost than traditional approaches.
The Kennedy plan, dated February 2000, lists a goal to "continually enhance core




                                            30
Appendix F

capabilities (people, facilities, equipment, and systems) to meet NASA objectives and
customer needs for faster, better, cheaper development and operations of space systems."
All Center implementation plans mentioned at least one FBC-related concept, usually
advanced technology development.

Performance Plan. The NASA FY 2001 Performance Plan, dated February 7, 2000,
does not provide sufficient coverage of FBC. The Earth Science and Space Science
Enterprise performance plans mention FBC as part of the Enterprises' implementation
strategies. The Space Science Enterprise performance plan mentions FBC
and related performance measures, but the other three 71 Enterprises, Earth Science,
Human Exploration and Development of Space, and Aerospace Technology do not
include FBC related performance measures. The performance plan for the Space Science
Enterprise provides two performance measures relating to cost and schedule, but this type
of measure could exist in the absence of FBC. The performance plan for the Space
Science Enterprise contains an implementation strategy section, which states:

        Program managers are encouraged to shorten the development time of technologies and
        missions, explore new conceptual approaches, streamline management, and incorporate
        innovative methods and technologies to enhance efficiency and effectiveness with
        maintaining safety. Continuing investment in long-term, high-payoff, technologies, such
        as advanced miniaturization, intelligent systems, autonomous operations, and simulation-
        based design, are key to implementing the Space Science mission. Collaborative efforts
        with other Federal agencies … as well as international partners, play a key role in the
        implementation strategy of the Enterprise.

For the Space Science Enterprise, the performance plan gave "target" metrics on
cost/schedule for each of two objectives. For the "Solve Mysteries of the Universe"
objective, the target is to "Successfully develop and launch no less than three of four
planned missions within 10% of budget and schedule." For the "Explore the Solar
System" objective, the target is to "Successfully develop and launch no less than one of
two missions within 10 percent of budget and schedule.

For the Earth Science Enterprise, the performance plan implementation strategy section
states, "Program managers are encouraged to accept prudent risk, shorten development
time of technologies and missions, explore new conceptual approaches, streamline
management, and incorporate innovative methods to enhance efficiency and
effectiveness," but does not provide related performance measures.




71
  The Biological and Physical Research Enterprise was established on September 29, 2000, and is not
included in the strategic management documents discussed in this report.

                                                   31
                                                                                         Appendix F

The GAO observed in a 1999 report that the NASA FY 2000 Performance Plan did not
adequately explain the FBC approach in the implementation strategy sections of the
plan. 72

Performance Report. The NASA FY 1999 Performance Report does not mention FBC,
but does evaluate the FY 1999 results for several FBC-related performance targets
contained in the NASA FY 1999 Performance Plan. 73

First, the report evaluates two FBC-related performance targets for the Provide
Aerospace Products and Capabilities 74 crosscutting process. One performance target was
to "reduce the 5-year average spacecraft cost for Space Science and Earth Science
Enterprise missions to $200 million from $590 million." The report concluded that this
target was not achieved, stating that the 5-year average spacecraft cost was reduced to
$210 million, which was not quite enough to achieve the target reduction. The other
performance target was to "reduce the 5-year average spacecraft development time for
Space Science and Earth Science missions to 5 years, 2 months from 8 years, 3 months."
The report concluded that this target was achieved, stating that the 5-year average
development time was reduced to 5 years, which is 2 months below the target.

In addition, the report evaluates one FBC-related performance target for the Space
Science Enterprise. The performance target was to "successfully launch seven spacecraft,
within 10 percent of budget, on average." The report concluded that this target was
achieved, stating that, with the inclusion of the Chandra X-ray Observatory, seven space-
craft have been successfully developed and launched with a 3.8 percent average overrun.




72
   In NSIAD-99-186R, "Observations on NASA's Fiscal Year 2000 Performance Plan," dated July 20, 1999,
the GAO observed that the implementation strategies in the plan tended to outline philosophies rather than
describe enabling actions. GAO stated that the performance plan does not clearly explain the application of
the FBC approach to spacecraft development in the Space Science and Earth Science implementation
strategy sections. GAO stated that, at a minimum, NASA should have included an explicit discussion of
what is involved in applying the FBC approach and how the establishment of "prudent risk" is part of it.
73
   GPRA requires that NASA prepare its first annual performance plan for FY 1999.
74
   The Provide Aerospace Products and Capabilities crosscutting process is the means by which NASA's
Strategic Enterprises and their Centers deliver systems (grounds, aeronautics, and space); technologies;
data; and operational services to NASA customers.

                                                    32
      Appendix G. Analysis of Human Resource Coverage in NASA's
                    Strategic Planning Documents

NASA has not adequately addressed human resources management in its strategic
management process and documents. NASA's strategic management documents include
a handbook, a strategic plan, a performance plan, a performance report, and Enterprise
Strategic Plans and Center Implementation Plans. None of the planning documents
shows a clear linkage between strategic goals and the human resources needed to
accomplish the goals.

NASA Strategic Plan. The 1998 NASA Strategic Plan with 1999 Interim Adjustments
contains a limited discussion on human resources. The Plan highlights people as a
NASA value 75 and states that the Agency's greatest strength is its workforce. In addition,
the "Crosscutting Processes" section of the Plan includes a process objective to optimize
Agency investment strategies and systems to align human, physical, and financial
resources with customer requirements, while ensuring compliance with applicable
statutes and regulations. The NASA's Fiscal Year 2000 Strategic Plan Concurrence Draft
discussion of human resources, while revised from the previous year, does not provide
much additional detail. The Plan continues to highlight people as a NASA value, but has
revised the "Crosscutting Processes" section. The objective now states that NASA
should invest wisely in the Agency's use of human resources, developing and drawing
upon the talents of all NASA's people. The Plan does not provide any further explanation
to show how these human resource ideas will be used to the accomplishment of NASA's
overall strategic goals.

Enterprise Strategic Plans. Unlike the Agency's overall strategic plan, none of NASA's
Enterprise Strategic Plans 76 present the NASA values77 or the strategic management of
crosscutting processes. In addition, there is no discussion of the resources that will be
used to accomplish the overall strategic goals of the Enterprise. The Aerospace
Technology Strategic Enterprise Plan, however, does discuss its commitment to people in
Section VIII, "Implementation Strategies and Principles."

Center Implementation Plans. While the Enterprise Strategic Plans do not present
NASA values or the strategic management of crosscutting processes, these concepts were
discussed, to varying degrees, in the Center Implementation Plans. All the Center
Implementation Plans, 78 except Dryden, Johnson, and Marshall, present Center values,
but only the Langley Research Center plan presented people as a value similar to

75
   Values articulate basic management policies and should define a customer-oriented approach for
producing and delivering Government services. A statement of values might include such topics as respect
for individuals (customers and employees), ethical and professional standards, and quality services.
76
   Appendix A contains a list of the titles and dates of the plans reviewed.
77
   Values provide a foundation of beliefs for the mission. Values also serve as a test of criteria for judging
the quest and guide decisions and the selection of strategies. They are common beliefs that can be
embraced by the whole organization. When implemented, they can be powerful instruments for changing
the organizational culture and motivating employees.
78
   See Appendix A.

                                                     33
                                                                                        Appendix G

NASA Strategic Plan. The other Centers, however, included values that were related to
employees or mentioned employees in the explanation of the values presented. In
addition, most Center Implementation Plans discussed crosscutting processes. However,
the staffing focus was on workforce reduction and maintaining diversity during
downsizing and not on the linkage between the strategic goals and the resources needed
to accomplish the goals. Only Dryden and Goddard developed strategies and objectives
that discussed reward recognition and performance systems, training, and recruitment.
While the narrative of the Institution79 section of the Jet Propulsion Laboratory (JPL)
plan highlights a strategy to attract, reward, and retain a highly skilled, diverse
workforce, the related performance objective focuses on the number of training hours an
employee receives and does not discuss the other attributes.

Performance Plan. NASA's Fiscal Year 1999 Performance Plan lists an objective to
optimize investment strategies and systems aligning human, physical, and financial
resources with customer requirements, while ensuring compliance with applicable
statutes and regulations. The performance targets for functions related to human
resources are:

•    reduce the civil service workforce level to below 19,000;
•    maintain a diverse NASA workforce throughout the downsizing efforts; and
•    reduce the number of Agency lost workdays.

The Fiscal Year 2000 Performance Plan includes similar information and shows that a
new target for the reduction of civil service workforce as below 18,200.

The targets do not show how a reduction in staff will align the human resources with
customer requirements. In addition, there is an effort to maintain diversity through
downsizing, but there is no target to ensure maintaining the proper skills mix through
downsizing. The reduction is Agencywide and does not identify occupations, Centers, or
Enterprises where excess staffing is occurring. The plan also does not discuss why
NASA has excess staff. If excess staff exist because goals have changed and programs
have been cancelled, then there should be a clear link to the Center, the Enterprise, and
occupations that are targeted for reduction.

The plan presents human resource information in the form of budget amounts for civil
servant full-time equivalents. 80 Although this presentation is at the Agency-level and the
Enterprise-level, it does not provide detail on how funds will be spent to ensure that the
workforce is of adequate size and possesses the skills and abilities to accomplish


79
   Institutional processes encompass policy decisions, allocation of common resources, approval of the
Center's institutional operations budgets, and recommendations on proposed capital investments including
fund source.
80
   The Office of Personnel Management defines a full-time equivalent as being equal to a work year of
2,080 hours.

                                                   34
Appendix G

the Agency and Enterprise strategic goals and objectives. Also, the plan does not discuss
planning for the future workforce changes in size and skill mix and the changes that may
adversely affect or enhance the Agency's ability to accomplish its strategic goals and
objectives.

Performance Report. The NASA Fiscal Year 1999 81 Performance Report reflects that
most of the targets presented in the Performance Plan for 1999 were achieved. The plan
also states that NASA considers the reduction of staff an improvement to the alignment
of human resources and to be consistent with the goals, objectives, and strategies in
NASA's Strategic, Implementation, and Performance Plans. However, the report does
not explain how the targets link to the strategic objectives and goals.




81
     NASA's performance report for fiscal year 2000 is not due to Congress until March 2001.

                                                      35
          Appendix H. Analysis of NASA's Human Resource Issues

Representatives at Goddard, Jet Propulsion Laboratory (JPL), Johnson, and Marshall as
well as the Office of Space Science and Earth Science have addressed human resource
management issues such as skill assessment, recruitment, training, and the effect the FBC
approach has had on managing human resources. 82

Skills Assessment and Recruitment. In response to our questionnaire related to the
effect the FBC approach has had on managing human resources, all NASA Center
representatives we contacted responded that they continually assess skill needs.
Although the Office of Space Science continually assesses Center human resources,
representatives noted that it is almost impossible to maintain and recruit the skilled
workforce necessary to ensure achievement of program goals. The Office of Space
Science has found it particularly difficult to replace retirees with similarly skilled people.
In addition, the Office of Space Science representative stated that there does not seem to
be an adequate pipeline of journeyman-level managers to replace retirees. Successful
ongoing recruiting, hiring, and retaining of workforce with the required expertise has
become a critical management concern at JPL due to the extreme competitiveness found
in the high-tech market. Goddard and Marshall representatives indicated that they have
isolated areas in which hiring has been challenging. Johnson indicated that it had a
shortfall in skills a year ago, but was authorized to hire an additional 100 people which
has remedied the shortfall. The Office of Earth Science stated that the recruitment
process offers many challenges particularly when relocation and specialty skills are
involved. Retaining skilled personnel is a continuous and challenging activity.

Training and Compensation. Training is also a concern. JPL representatives stated
that the demand on its employees' time, due to significant workload and schedule
commitments, has made it increasingly difficult for employees to attend relevant training
and workshops. Johnson noted that it experienced the same problem in 1999. Marshall
is experiencing an increased need for additional emphasis and funding on retraining and
cross-training. In addition, the Office of Space Science noted that the lack of
authorization over the last several years to use promotions and other methods to reward
employees makes it difficult to counter the lure of employment opportunities in industry.

FBC Impact on Human Resource Management. Representatives from the Office of
Space Science and the Office of Earth Science stated that FBC has caused adjustments in
management's approach. The Office of Space Science indicated that while its
Headquarters staff has been reduced, the Office continues to have the same review and
reporting requirements that it had when the office staff was larger. The Office of Earth
Science noted that the change from a few large missions to a greater number of small
missions increases the level and amount of management. JPL representatives stated that




82
  We analyzed the responses provided by NASA representatives but did not review trends in their staffing
and budget levels as part of our analysis.

                                                   36
Appendix H

in response to the FBC approach, JPL will review how all work gets done and the
development of new administrative processes. In addition, JPL indicated that it has
established a high-level Future Program Council. 83




83
  The Future Program Council deliberates the undertaking of any new commitments and reviews all
proposed projects regarding adequate funding, facilities, and workforce including management oversight.

                                                   37
Appendix I. Management's Response




               38
     Appendix I




39
Appendix I




             40
     Appendix I




41
Appendix I




             42
     Appendix I




43
Appendix I




             44
                       Appendix J. Report Distribution
National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Goddard Space Flight Center
Acting Director, Lyndon B. Johnson Space Center
Director, Marshall Space Flight Center
Director, NASA Management Office, Jet Propulsion Laboratory
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space




                                           46
                                                                           Appendix J

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          47
                    NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of our reports. We
wish to make our reports responsive to our customers’ interests, consistent with our statutory responsibility.
Could you help us by completing our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to
the Assistant Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Impact of the Boeing Company's Restructuring on NASA

Report Number:                                         Report Date: ______________


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically
                                                         5        4        3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5        4        3          2          1       N/A
3.   We effectively communicated the audit
                                                         5        4        3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to
                                                         5        4        3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above responses, please write
them here. Use additional paper if necessary:_______________




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)


        Congressional Staff                             Media
        NASA Employee                                  Public Interest
        Private Citizen                                Other:
        Government:                 Federal:               State:        Local:


May we contact you about your comments?

Yes: ____________               No: ____________
Name: ____________________________________
Telephone: ________________________________


Thank you for your cooperation in completing this survey.




                                                   2
Major Contributors to the Report

Daniel J. Samoviski, Program Director, Earth and Space Science Audits

Esther Judd, Program Manager

James Richards, Auditor

Eugene Bauer, Auditor

Nancy Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
